U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

June 7, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Castañon v. United States, No. 20-1279
Dear Mr. Harris:
The jurisdictional statement in the above-captioned case was filed on March 12, 2021. A
motion in response is now due, after two extensions, on June 14, 2021. We respectfully request,
under Rule 30.4 of the Rules of this Court, a further extension of time to and including July 14,
2021, within which to file a motion in response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s motion in response have been heavily engaged with the press of
previously assigned matters with proximate due dates.
Counsel for appellants does not oppose this further extension.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-1279
CASTANON, ANGELICA, ET AL.
USA, ET AL.

DOUGLAS N. LETTER
U.S. HOUSE OF REPRESENTATIVES
219 CANNON HOUSE OFFICE BUILDING
WASHINGTON, DC 20515-6532
202-225-9700
DOUGLAS.LETTER@MAIL.HOUSE.GOV
LORELIE S. MASTERS
HUNTON ANDREWS KURTH LLP
2200 PENNSYLVANIA AVENUE, NW
WASHINGTON, DC 20037
202-955-1851
LMASTERS@HUNTONAK.COM
WILLIAM STEIN
HUGHES HUBBARD & REED LLP
1775 I STREET, N.W.
6TH FLOOR
WASHINGTON, DC 20006-2401
202-721-4650
WILLIAM.STEIN@HUGHESHUBBARD.COM
CATHERINE E. STETSON
HOGAN LOVELLS US LLP
COLUMBIA SQUARE
555 THIRTEENTH STREET, NW
WASHINGTON, DC 20004
202-637-5491
CATE.STETSON@HOGANLOVELLS.COM

CHRISTOPHER J. WRIGHT
HARRIS,WILTSHIRE & GRANNIS LLP
1919 M STREET, NW
EIGHTH FLOOR
WASHINGTON, DC 20036
202-730-1300
CWRIGHT@HWGLAW.COM

